No. 19In the

Supreme Court of the United States
DONNETT M. TAFFE, PERSONAL
REPRESENTATIVE OF THE ESTATE OF
STEVEN JEROLD THOMPSON, DECEASED,
Petitioner,
v.
GERALD E. WENGERT, IN HIS
INDIVIDUAL CAPACITY, SCOTT ISRAEL, IN
HIS INDIVIDUAL CAPACITY, AND SCOTT ISRAEL,
IN HIS OFFICIAL CAPACITY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Barbara A. Heyer
Counsel of Record
Heyer & A ssociates, P.A.
1311 S.E. 4th Avenue
Fort Lauderdale, FL 33316
(954) 522-4922
civilrtslaw@hotmail.com
Counsel for Petitioner

290107

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
In the case at bar, the Eleventh Circuit accepted
jurisdiction of an interlocutory ruling based upon the
defense of qualified immunity. The district court had
denied summary judgment as to all counts, including the
defense of qualified immunity. The denial was based upon
the Petitioner’s extensive record evidence from which the
district court had found:
“[P]laintiff disputes almost every aspect of
Wengert’s story. She contends, inter alia, that
Thompson had nothing to do with the robbery,
did not fit the robbery suspects’ descriptions, did
not flee arrest, was not armed, and did not shoot
at Wengert. Under those facts, there would have
been no probable cause for Thompson’s arrest,
no legal reason for Wengert to shoot him, and
therefore no qualified immunity.” (App. B, 32a).
Thereafter, the Eleventh Circuit reversed the district
court’s denial of summary judgment based upon qualified
immunity, as well as all other federal and state claims
which had been brought by the Petitioner, “[b]ecause the
district court’s findings were not adequate. We undertake
our own review of the record.” (App. A, p. 3a).
Three questions are presented:
1.

Under what circumstances may an appellate
court review the findings of the district court with
respect to the validity of the disputed material
facts where there exists no legal question
concerning a clearly established federal right
that needs to be decided by the court?

ii
2.

Can an appellate court, having disagreed with
a district court’s assessment of the evidence,
thereafter reverse the findings of the district
court, and substitute its findings of fact based
upon the moving parties version of the evidence?

3.

Can an appellate court substitute its own findings
of fact based upon the moving parties’ version of
the evidence then accept pendent jurisdiction and
reverse a district court’s non-final order on federal
and state claims not the subject of the appeal by
finding that they were “inextricably intertwined,”
to the defense of qualified immunity?

iii
LIST OF PARTIES
The caption of the case contains the names of all the
parties.

iv
RELATED CASES STATEMENT
Donnett M. Taffe, Personal Representative of the
Estate of Steven Jerold Thompson, deceased v. Gerald
Wengert, et al., No. 16-61595-Civ-Cooke, United States
District Court for the Southern District of Florida. Order
denying summary judgment entered on January 31, 2018.
Donnett M. Taffe, Personal Representative of the
Estate of Steven Jerold Thompson, deceased v. Gerald
Wengert, et al., No. 18-10776-EE, U.S. Court of Appeals
for the Eleventh Circuit. Order granting jurisdiction on
June 18, 2018.
Donnett M. Taffe, Personal Representative of the
Estate of Steven Jerold Thompson, deceased v. Gerald
Wengert, et al., No. 18-10776-EE, U.S. Court of Appeals
for the Eleventh Circuit. Judgment entered on May 17,
2019
Donnett M. Taffe, Personal Representative of the
Estate of Steven Jerold Thompson, deceased v. Gerald
Wengert, et al., No. 18-10776-EE, U.S. Court of Appeals
for the Eleventh Circuit. Rehearing en banc denied on
July 11, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED CASES STATEMENT  . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL PROVISION  . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 10
I.

The Eleventh Circuit, having improperly
found the district court’s findings to be
inadequate, substituted its own findings
of materially disputed facts based upon
the moving party’s version of the evidence,
which is in conflict with the decisions of this
Court, and several Courts of Appeals . . . . . . . . 10

vi
Table of Contents
Page
II. The Eleventh Circuit, having improperly
substituted its findings of disputed material
facts based upon the moving parties’
version of the evidence and accepting
pendent jurisdiction, is in conflict with the
decisions of this Court, several Courts
of Appeals and Florida courts  . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MAY 17, 2019 . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA, FILED JANUARY 31, 2018 . . . . . . . . 20a
APPENDIX C — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JUNE 11, 2018 . .  37a
APPENDIX D— DENIAL OF REHEARING
OF T H E U N I T ED S TA T E S C OU RT
OF A PPEA LS FOR THE ELEV ENTH
CIRCUIT, FILED JULY 11, 2019  . . . . . . . . . . . . . 39a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Badgley v. Santacroce,
815 F.2d 888 (2d Cir. 1987) . . . . . . . . . . . . . . . . . . . . . 12
Blaylock v. City of Phila.,
504 F.3d 405 (3d Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 15
Coble v. City of White House, Tenn.,
No. 08-314, 2009 (M.D. Tenn. Aug. 29, 2009) . . . . . . 16
Coble v. City of White House, Tenn.,
634 F.3d 865 (6th Cir. 2011) . . . . . . . . . . . . . . . . . . . .  17
Destin Pointe Owners’ Ass’n, Inc. v.
Destin Parcel 160, LLC
(Fla. App. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Enterprise Mgmt. Ltd. v. Warrick,
717 F.3d 1112 (10th Cir. 2013)  . . . . . . . . . . . . . . . . . . 12
Estate of Booker v. Gomez,
745 F.3d 405 (10th Cir. 2014)  . . . . . . . . . . . . . . . . . . . 16
Estate of Lopez v. Gelhaus,
871 F.3d 998 (9th Cir. 2017)  . . . . . . . . . . . . . . . . . . . . 16
Graham v. Connor,
490 U.S. 386 (U.S. 1989)  . . . . . . . . . . . . . . . . . . . . . . 11

ix
Cited Authorities
Page
Hammett v. Paulding County,
875 F.3d 1036 (11th Cir. 2017)  . . . . . . . . . . . . . . . . . . 15
Harris v. Lasseigne,
No. 14-1033 (6th Cir. 2015)  . . . . . . . . . . . . . . . . . . . . 16
Harris v. Pittman,
No. 17-7308 (4th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . . 15
In re Mazzeo,
167 F.3d 139 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 12
Jackson v. Federal Exp.,
766 F.3d 189 (2d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 13
Johnson v. Jones,
515 U.S. 304 (1995)  . . . . . . . . . . . . . . . . . . . . . . . .  10, 14
Jones v. Cannon,
174 F.3d 1271 (11th Cir. 1999)  . . . . . . . . . . . . . . . 21, 22
Koch v. Rugg,
221 F.3d 1283 (11th Cir. 2000) . . . . . . . . . . . . . . . . . . 11
Lee v. Ferraro,
284 F.3d 1188 (11th Cir. 2002) . . . . . . . . . . . . . . . . . . 14
Morton v. Kirkwood,
707 F.3d 1276 (11th Cir. 2013)  . . . . . . . . . . . . . . . . . . 18

x
Cited Authorities
Page
Plumhoff v. Rickard,
134 S. Ct. 2012 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . 10
Salazar–Limon v. Houston,
137 S. Ct. 1277 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 20
Saucier v. Katz,
533 U.S. 194 (2001)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Scott v. Harris,
550 U.S. 372 (2007) . . . . . . . . . . . . . . . . . . 11, 12, 15, 18
Sears v. Roberts,
922 F.3d 1199 (11th Cir. 2019)  . . . . . . . . . . . . . . . . . . 18
Thompson v. Grida,
656 F.3d 365 (6th Cir. 2011) . . . . . . . . . . . . . . . . . . . . 16
Tolan v. Cotton,
134 S. Ct. 1861 (U.S. 2014) . . . . . . . . . . . . . . .  11, 19, 20
United States v. Cossey,
632 F.3d 82 (2d Cir.2011)  . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Hughes,
606 F.3d 311 (6th Cir. 2010)  . . . . . . . . . . . . . . . . . . . . 15
Watkins v. City of Oakland,
145 F.3d 1087 (9th Cir. 1998) . . . . . . . . . . . . . . . . . . . 16

xi
Cited Authorities
Page
Witt v. W.Va. State Police, Troop 2,
633 F.3d 272 (4th Cir. 2011)  . . . . . . . . . . . . . . . . . . . . 15
York v. City of Las Cruces,
523 F.3d 1205 (10th Cir. 2008) . . . . . . . . . . . . . . . . . . 18
United States Constitution:
Fourth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statutes:
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Rule:
Rule 52(a), Florida Rules of Civil Procedure  . . . . . . . . 12
Rule 56(a), Federal Rules of Civil Procedure . . . . . . . . 12
Rule 1.510(d), Florida Rules of Civil Procedure . . . . . . 13

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, Donnett M. Taffe, Personal Representative
of the Estate of Steven Jerold Thompson, deceased,
respectfully petitions the Court for a writ of certiorari to
review the final judgment of the United States Court of
Appeals for the Eleventh Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Eleventh Circuit reversing the lower court’s
denial of summary judgment as to all counts is included
as Appendix A. The opinion of the United States District
Court for the Southern District of Florida (Cooke, J.),
denying Respondents’ Motions for Summary Judgment is
included as Appendix B. The Order of the United States
Court of Appeals for the Eleventh Circuit accepting
jurisdiction is included as Appendix C. The order of the
United States Court of Appeals for the Eleventh Circuit
is included as Appendix D.
STATEMENT OF JURISDICTION
The final judgment of the United States Court of
Appeals for the Eleventh Circuit was entered on May 17,
2019. Petitioner’s timely Petition for Rehearing En Banc
was denied on July 11, 2019 and included as Appendix D.
The jurisdiction of this Court is invoked pursuant to 28
U.S.C. §1254(1).

2
RELEVANT CONSTITUTIONAL PROVISION
“The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.” Fourth
Amendment to the United States Constitution.
STATEMENT OF THE CASE
On June 6, 2014, Respondent Wengert, a deputy sheriff
with the Broward County Sheriff’s office in Florida,
shot and killed Steven Thompson. Respondent Wengert
had discharged his gun twenty-five times. Respondent
was sixty-five feet away down a hallway that had been
described by an eyewitness as a dark, ominous hallway like
a “horror show,” when he shot Thompson eight times to the
back of his body. Thereafter, Respondent shot Thompson
a ninth time, (the fatal shot to the groin which traveled up
through his vital organs) while he lay writhing in pain on
the floor of the apartment building.
Petitioner filed the present case under 42 U.S.C.
§1983 claiming that Thompson was not the armed robber
that Respondent and other law enforcement personnel
were looking for, that he posed no threat to Wengert (or
anyone else), that he did not shoot at Wengert, and that
the gun attributed to him had been planted at the scene
to justify Wengert’s actions in violation of his rights under
the Fourth Amendment to the United States Constitution.

3
In response to summary judgment, Petitioner
supported the allegations made in her complaint with
extensive evidence which came from the testimony of the
Broward County Sheriff’s personnel, including its forensic
experts, its official records, including crime scene reports,
diagrams and photographs, other law enforcement
personnel, and independent witnesses. Relying upon
this evidence presented by the non-moving party, the
district court properly denied summary judgment as to all
claims brought by the Petitioner. Respondents appealed
the district court’s rejection of their claim to qualified
immunity.
On May 17, 2019, the Eleventh Circuit reversed the
district court’s ruling as to Respondent’s claim to qualified
immunity, as well as all of Petitioner’s federal and state
claims which had not been part of the interlocutory appeal.
The Eleventh Circuit held that the district court’s findings
were not adequate and thereafter, instead of remanding
it to the district court with instructions, it substituted
its findings of fact based solely upon the moving parties’
version of the facts.
Relying only on the facts presented by the moving
parties, the Eleventh Circuit stated:
“Presented alone, these conflicting accounts
would likely be suff icient to establish a
genuine dispute that Thompson did not fire at
Wengert. But the audio of the shooting resolves
these conflicting accounts. The audio
captures one or two initial shots, a call over the
radio of ‘shots fired,’ someone—presumably
Wengert—shouting ‘put the gun down,’ and

4
then a barrage of gunfire.” (Emphasis supplied).
(App. A, p. 14a).
In stark contrast, the district court did not and could
not find any evidence on the audio of “one or two initial
shots,” nor “Wengert—shouting ‘put the gun down.’” This
is true because the evidence cited by the Eleventh Circuit
does not exist. The Eleventh Circuit apparently relied
solely upon the representations of the moving parties,
and clearly failed to listen to the audiotape. The radio
transmissions and the CAD reports (dispatch reports in
real time) do not reflect any “initial shots,” nor is there
any evidence on the dispatch tape of anyone saying “put
the gun down.” The only thing that is audible on the
recording is a Lauderhill Officer, Weeks saying “shots
fired...shots fired”, “lock down papa building” and giving
the address of the location, with the sound of numerous
shots in the background. There is no recording of “one or
two initial shots” prior to Officer Weeks radioing “shots
fired,” despite what is stated in the Eleventh Circuit
opinion. There is absolutely nothing on the audio that
provides the basis for the court’s conclusion that “one or
two initial shots” could be heard. Wengert shot his gun
25 times, reloading one time. What can be heard on the
audio is Wengert methodically shooting his gun 14 times.
Wengert was well into his barrage of shooting at the point
in time that the dispatch tapes of the various 911 calls
and Weeks’ call were recorded. Nowhere on the audiotape
can it be heard that “someone—presumably Wengert—
shouting ‘put the gun down.” The cited “facts” relied upon
in reversing the district court’s ruling simply do not exist.
The Eleventh Circuit opinion states that “officers and
an apartment resident... remember hearing a ‘defining

5
shot’ before the rest of the gunfire broke out.” (App. A,
p. 13a-14a). However, the record evidence shows that the
only “independent” officer/witness in this regard was
Lauderhill Officer Weeks, who testified that he was unable
to hear any difference in the gunshot sounds even though
he was standing directly outside the glass door and could
see Wengert shooting. Likewise, no distinguishable single
shot was heard by any apartment resident, although one
heard someone shout, “I’m going to kill you, motherfucker.”
immediately followed by a barrage of shots. Respondent
Wengert has admitted that Thompson had said nothing
to him prior to the shooting. Other apartment residents
also heard multiple gunshots and Thompson screaming,
“help, help” and “he’s shooting me” and “I’m shot.”
The Eleventh Circuit opinion relies solely on the
interpretation of the disputed facts presented by the
moving party. The appellate court states that “[t]he
officers firmly dispute that any gun was planted at the
scene” and “that the evidence instead supports Wengert’s
version of the facts: Thompson was armed, fired the first
shot, and only then did Wengert return fire.” (Emphasis
added). (App. A, p. 16a). The only support for Respondents’
“firm dispute” that a gun was planted are their own
statements which the appellate court accepted to the
exclusion of all the forensic and eyewitness evidence,
including the audiotape.
The forensic evidence demonstrated that the gun
(a Luger) alleged to have been in Thompson’s hand
the entire time was 51 feet from where his body lay as
Wengert continued to shoot him. Respondent claimed
that Thompson shot at him at close range twice. However,
only one cartridge and one projectile attributed to the
gun in question were found and both items were located

6
in inexplicable locations. The flattened projectile was
positioned around a corner and on the other side of a
door with no physical evidence to demonstrate how it got
there, i.e., no strike marks and no holes. The Eleventh
Circuit opinion makes no reference to this critical piece
of evidence. Additionally, the crime scene detective had
marked and measured all of the evidence, including
the Luger, and testified that no one ever told him that
any evidence had been moved, otherwise he would have
included such information in his report.
The record evidence demonstrates the following: The
location of where Thompson’s body fell was approximately
in the middle of a long narrow hallway. The gun in
question was 51 feet away near the west end of the hallway.
Lauderhill Police Officer Weeks, who was at the east
end of the hallway, testified that he “peeked” into the
hallway after a deputy gave him the all clear, and saw a
gun pretty much down virtually the entire length of the
hallway (at the far west end) from where he was standing
at the glass door entrance. Officer Weeks also stated:
“They never moved the gun. The gun was always there.”
Another Lauderhill Officer, Michel, who was subsequently
stationed at the far west end of the hallway (the other end
of the hallway from Weeks), over 51 feet away from where
Thompson lay dying and at the same doorway where two
other deputies, Yoder and Koutsofios had been positioned
during the shooting stated that from where he stood, “a
couple of feet away was a gun, a black, a black probably
a Glock looks like it...lying in the middle of the hallway.”
The court failed to mention any of this record evidence.
The Eleventh Circuit opinion instead relied upon the
statements of the Respondent and another interested

7
person, deputy sheriff Yoder. Despite the evidence from
the Lauderhill officers and the physical evidence, the
court relied upon one of at least two different versions of
deputy Yoder’s stories, stating “that as he approached,
he saw a gun next to Thompson...that he kicked the gun
down the hallway and away from Thompson...that the
gun slid twenty to twenty-five feet down the hallway.”
(App. A, p.5a). In fact, it was only after the filing of the
lawsuit, in an attempt to align their testimony with the
physical evidence, that the gun was at the far west end of
the hallway, 51 feet away from Thompson, that Wengert
and Yoder then reversed their prior testimonies. In those
recitations, Wengert and Yoder testified that they had
not moved or touched the gun. Yoder’s testimony that
“obviously we didn’t touch it” was interpreted by the
Eleventh Circuit to mean: “we understand that statement
to mean the deputies did not touch the weapon or remove
it from the hallway after Yoder had kicked the weapon to
put it out of Thompson’s reach.” (Emphasis added). (App.
A, p. 5a, n.1). Other than Wengert, the alleged kicking
of the gun by Yoder was not observed by any other law
enforcement officers or anyone else.
The forensic evidence demonstrated that Thompson’s
fingerprints were not on the gun nor was there any trace
of blood on the gun that Wengert claimed was still in
Thompson’s hand as he lay in a pool of blood. There was no
evidence of any gunshot residue on Thompson’s hands or
clothes although his hands had been swabbed and covered
with plastic bags. The completed test kit was submitted
to property. There was no evidence of Thompson’s
fingerprints or DNA on the magazine or cartridges in the
gun. Thompson’s “contact DNA” was only on the outside
of the weapon which is consistent with the gun being

8
swiped across his hand as he lay dying in the corridor.
The evidence demonstrated that the semi-automatic
gun in question had four bullets in the magazine and no
bullet in the chamber. The Respondents had attempted
to deflect this evidence by suggesting that the gun was
inoperable, something that was disputed by their own
ballistics expert.
The Eleventh Circuit, accepting the Respondents’
version of the facts, stated that the deputies:
“[e]ncountered Thompson and a group of other
men. ...Thompson was a 26-year-old black male.
He was approximately 5’8” and weighed 210
pounds. That evening, Thompson was wearing
primarily black clothing, although his shorts
also had a white and orange pattern. His
sneakers were black and orange, and he was
wearing a hat with white lettering. Thompson
was close to the stolen phone, based on the GPS
data.” (Emphasis added). (App. A, p. 4a).
The record evidence actually showed that the GPS
tracking the cell phone located the ping as coming from
the center of the parking lot where a group of black men
were standing. Thompson was not near that group. He
was just exiting the door of an apartment building. The
record evidence also showed that the description of the
suspects known to the deputies at the shooting scene,
including Respondent Wengert, prior to the incident, was
vague and could apply to almost anyone at the scene: two
black males, one thin, one heavy, dressed all in black. The
record evidence also showed that nine (9) minutes prior to
encountering Thompson, deputies had been notified by a

9
Lauderhill undercover officer that he knew who the two
armed robbers were, and had texted photos of the two
suspects to another Lauderhill officer and K-9 deputy
sheriff Yoder. The Broward Sheriff’s office has admitted
that it did not retain a copy of the photograph. None of
this critical evidence was in the Eleventh Circuit opinion.
The Eleventh Circuit goes on to state that:
“there is no evidence that deputies prevented
EMS from treating Thompson to give themselves
time to plant a gun. EMS records show that
fire rescue made their way towards Thompson
approximately one minute after arriving on the
scene. They began treating Thompson’s injuries
another minute later.” (Emphasis added). (App.
A, p.15a).
This is absolutely incorrect. What the record evidence
actually shows is that fire rescue was called at 11:18 p.m.,
arrived at the entrance to the apartment building at 11:21,
and were prevented by law enforcement from entering
the building until 11:33. Wengert and Yoder were the
only deputies in the hallway when Yoder instructed other
officers, outside, not to let fire rescue or anyone in until
they made sure “another shooter” wasn’t there in the
hallway. The record shows that at that time Respondent
and Yoder were fully aware that there was only one
suspect at that apartment complex. Despite this claimed
concern for a possible second shooter, Wengert chose that
twelve minute time period to leave the shooting scene,
allegedly to move his vehicle. He also testified that he
then reentered the scene. The twelve minutes provided
more than sufficient time for Respondent and his cohorts

10
to stage the shooting scene before allowing other law
enforcement personnel and fire rescue personnel to enter
the hallway to treat Thompson and view the evidence.
The record evidence cited herein is only a sample of
the incorrect findings in the Eleventh Circuit opinion.
Instead of reviewing the evidence as the district court
had clearly done, the Eleventh Circuit simply adopted
the version of the moving parties, including their blatant
misrepresentations. The district court was correct that
Petitioner had properly disputed “virtually every material
fact” raised by Respondents, with extensive record
evidence.
It was improper for the Eleventh Circuit to substitute
its findings based upon the moving parties’ version of the
facts when the record evidence blatantly contradicted
their version.
REASONS FOR GRANTING THE PETITION
I.

The Eleventh Circuit, having improperly found
the district court’s findings to be inadequate,
substituted its own findings of materially disputed
facts based upon the moving party’s version of the
evidence, which is in conflict with the decisions of
this Court, and several Courts of Appeals

This Court has held “that a defendant, entitled to
invoke a qualified immunity defense, may not appeal a
district court’s summary judgment order insofar as that
order determines whether or not the pretrial record sets
forth a ‘genuine’ issue of fact for trial.” Johnson v. Jones,
515 U.S. 304, 319 (1995). In reaffirming Johnson, this
Court, in Plumhoff v. Rickard, 134 S.Ct. 2012, 2019 (2014)

11
stated “that a determination of evidence sufficiency is
closely related to other determinations that the trial court
may be required to make at later stages of the case,” and
that “appellate courts have ‘no comparative expertise’
over trial courts in making such determinations and that
forcing appellate courts to entertain appeals from such
orders would impose an undue burden.” (Internal citations
omitted). “To be reviewable, a pretrial qualified immunity
appeal must present a legal question concerning a clearly
established federal right that can be decided apart from
considering sufficiency of the evidence relative to the
correctness of the plaintiff’s alleged facts.” (Citations
omitted). (Emphasis added). Koch v. Rugg, 221 F.3d 1283,
1294 (11th Cir. 2000).
The Eleventh Circuit opinion relies solely upon the
moving parties version of the disputed material facts
including the lie that “one or two initial shots” and “put
down the gun” could be heard on the dispatch tape. A
review of the record evidence presented by Petitioner
leads to the “inescapable conclusion that the court below
credited the evidence of the party seeking summary
judgment and failed to properly to acknowledge key
evidence offered by the party opposing that motion.” Tolan
v. Cotton, 134 S.Ct. 1861, 1867-8 (2014).
The Eleventh Circuit’s opinion, which credits the
evidence of the moving parties in order to reverse the
district court’s ruling, reflects a “clear misapprehension of
summary judgment standards.” Id. at 1868. The standard
of proof has not been altered by Scott v. Harris, 550 U.S.
372 (2007). It is still required that, as here, “an excessive
force claim turns on which of two conflicting stories
best captures what happened on the street, Graham [v.
Connor, 490 U.S. 386 (U.S. 1989)] will not permit summary

12
judgment in favor of the defendant official. ” Saucier v.
Katz, 533 U.S. 194, 216 (2001).
Unlike the decisive videotape evidence in Scott which
unequivocally contradicted the plaintiff’s version of the
evidence, the evidence herein clearly demonstrates that
the dispatch tape relied upon by the Eleventh Circuit
blatantly contradicts that court’s version of the materially
disputed facts.
Rule 56(a) of the Federal Rules of Civil Procedure
directs a district court to set forth “on the record,”
the reasons for their disposition of summary judgment
motions, although the particular form and content are left
to the court’s discretion. See: Advisory Committee Note
to 2010 Amendments; Enterprise Mgmt. Ltd. v. Warrick,
717 F.3d 1112, n.4 (10 th Cir. 2013).
“[A]bsent some indication of a material issue
being overlooked or an incorrect legal standard
being applied, we do not require district courts
to write elaborate essays using talismanic
phrases. See, e.g., United States v. Cossey, 632
F.3d 82, 87 (2d Cir.2011) (‘strong presumption’
on review of sentencing that the district court
‘considered all arguments properly presented
to [it], unless the record clearly suggests
otherwise’); cf. In re Mazzeo, 167 F.3d 139, 142
(2d Cir.1999) (Fed.R.Civ.P. 52(a) explanation of
reasoning does not require ‘punctilious detail
or slavish tracing of the claims issue by issue
and witness by witness’ (internal quotations and
alterations omitted)); Badgley v. Santacroce,
815 F.2d 888, 889 (2d Cir.1987) (same). All that

13
is required is a record sufficient to allow an
informed appellate review.”
Jackson v. Federal Exp., 766 F.3d 189, 196-7 (2d Cir. 2014).
Under Rule 1.510(d) of the Florida Rules of Civil
Procedure, a summary judgment order should specify
the material “facts that appear without substantial
controversy” and those facts which remain “actually
and in good faith controverted.” However, where the
trial court fails to make specific findings, the appellate
court may rely upon the “ample documentary and other
evidentiary support for the trial court’s rulings.” Destin
Pointe Owners’ Ass’n, Inc. v. Destin Parcel 160, LLC, p.2
(Fla. App., 2019).
Because it did not agree w ith district court’s
assessment of the evidence, the Eleventh Circuit found
the court “findings were not adequate.” (App. A, p. 3a). In
fact, a review of the district court’s order demonstrates
that its ruling was entirely appropriate. As the district
court’s order demonstrates, it had reviewed and cited
to the audio tape in question, with respect to certain
issues of disputed material fact concerning the following:
(1) the descriptions of the robbery suspects known to the
deputies at the time of the shooting; (2) that one of the
suspects was believed to be miles away from the location
of the GPS ping and, (3) that the deputies had been sent
a photograph of the actual suspects nine minutes prior to
encountering the decedent, Steven Thompson. The district
court having reviewed the audio dispatch tape, did not
hear the “one or two initial shots” or “put down the gun,”
cited by the Eleventh Circuit because, in fact, they are
not on the audio dispatch tape.

14
The moving parties’ representations do not exist on
the audiotape, yet they were accepted by the Eleventh
Circuit as “blatantly contradicting” the nonmoving party’s
version of facts.
When a district court does not explicitly identify
which material facts are in dispute, “a court of appeals
may have to undertake a cumbersome review of the record
to determine what facts the district court, in the light
most favorable to the nonmoving party, likely assumed.”
Johnson, 515 U.S. at 319. The evidence must be construed
in the light most favorable to the nonmovant, regardless of
whether the court feels that one party’s version of events
is more credible than the other’s. Lee v. Ferraro, 284 F.3d
1188, 1190 (11th Cir. 2002).
“By characterizing Plaintiff ’s legitimate
interpretation of the physical and forensic
evidence as ‘pure speculation’ and ‘disputed
by affirmative evidence ... most obviously, the
officers’ testimony,’ the majority concludes
that Plaintiff’s interpretation of the physical
evidence amounts to conjecture. Granting
summary judgment on qualified immunity
under these facts therefore sets up a paradigm
where, no matter how many inconsistent
accounts of an incident an officer gives and
no matter what viable theory is supported by
forensic evidence, a fourth-amendment claim
arising out of a deadly shooting will never
survive summary judgment, unless a thirdparty eye-witness can support Plaintiff ’s
narrative or the plaintiff survives the shooting.
This cannot be the evidentiary standard in
qualified immunity cases.”

15
Hammett v. Paulding County, 875 F.3d 1036, 1058 (11th
Cir. 2017)(Williams, Dissenting in part).
“As we have clarified, Scott is the exception, not the
rule. It does not ‘abrogate the proper summary judgment
analysis, which in qualified immunity cases ‘usually means
adopting...the plaintiff’s version of the facts.’” Harris
v. Pittman, No. 17-7308 at *18 (4th Cir. 2019) quoting
Witt v. W.Va. State Police, Troop 2, 633 F.3d 272, 276
(4th Cir. 2011). “That standard continues to apply in the
face of ‘documentary evidence’ that lends support to a
government official’s account of events, id., or even makes
it ‘unlikely’ that the plaintiff’s account is true.” Id. quoting
United States v. Hughes, 606 F.3d 311, 319-20 (6th Cir.
2010) (holding that Scott does not apply to photographs
rendering plaintiff’s account ‘unlikely’).
“Summary judgment is proper under Scott
only when there is evidence - like the videotape
in Scott itself - of undisputed authenticity that
shows some material element of the plaintiff’s
account to be ‘blatantly and demonstrably false.’
Blaylock v. City of Phila., 504 F.3d 405, 414 (3d
Cir. 2007) (refusing to extend Scott to evidence
in form of police photographs that fail to depict
‘all of the defendant’s conduct and all of the
necessary context’); see also Witt, 633 F.3d at
277 (holding Scott inapplicable to soundless
video that does not capture key disputed facts).”
(Emphasis added). Harris, No. 17-7308 at *18-19.
Therefore, “‘[a] defendant challenging a denial of
summary judgment on qualified immunity grounds must
be willing to concede the most favorable view of the facts to

16
the plaintiff for purposes of the appeal.’” (internal citation
omitted). Harris v. Lasseigne, No.14-1033 at *5 (6th Cir.
2015). “In circumstances where ‘a defendant relies instead
on her own disputed view of the facts, the appeal boils
down to issues of fact and credibility determinations that
we cannot make,’ and this court does not have jurisdiction.”
(Emphasis added). Id., quoting Thompson v. Grida, 656
F.3d 365, 367 (6th Cir. 2011).
“On an interlocutory appeal of a denial of
qualified immunity, our review is limited to
‘purely legal issues.’ Watkins v. City of Oakland,
145 F.3d 1087, 1091 (9th Cir. 1998). ‘[W]e must
take, as given, the facts that the district court
assumed when it denied summary judgment for
a (purely legal) reason.’ Id. (internal quotation
marks and alteration omitted). ‘[W]here the
district court does not explicitly set out the facts
that it relied upon, we undertake a review of the
pretrial record only to the extent necessary to
determine what facts the district court, in the
light most favorable to the nonmoving party,
likely assumed.’ Id.”
Estate of Lopez v. Gelhaus, 871 F.3d 998, 1007 (9th Cir.
2017). See also: Estate of Booker v. Gomez, 745 F.3d 405,
410 (10th Cir. 2014)(reviewing the “entire record” including
“video clips” to determine which facts the district court
“likely assumed”).
In Coble v. City of White House, Tenn., No. 08-314,
2009 WL 2850764, at *11 (M.D.Tenn. Aug. 29, 2009),
the district court determinated that, in light of an audio
recording, it was not required to accept the nonmoving
party’s version of the events. The Sixth Circuit reversed,

17
noting that “[m]any factors could affect what sounds are
recorded, including the volume of the sound, the nature
of the activity at issue, the location of the microphone,
whether the microphone was on or off, and whether the
microphone was covered.” Coble v. City of White House,
Tenn., 634 F.3d 865, 869 (6th Cir. 2011). “Facts that are
not blatantly contradicted by the audio recording remain
entitled to an interpretation most favorable to the nonmoving party. ...Even if part of Coble’s testimony is
blatantly contradicted by the audio recording, that
does not permit the district court to discredit his entire
version of the events. We allow cases to proceed to trial
even though a party’s evidence is inconsistent, because
in reviewing a summary judgment motion, credibility
judgments and weighing of the evidence are prohibited.”
(Emphasis added). Id. at 870. (Citation and quotations
omitted.)
“As to their first argument, the police officers
overstate the relevance of Scott, in which the
court found ‘an added wrinkle,’ in the form
of an unadulterated videotape that captured
the entire incident. . . . The court held that a
court may not adopt a “blatantly contradicted”
version of the facts for summary judgment
purposes. By contrast, only part of the incident
involving the Yorks and the police officers was
captured on an audio tape, portions of which
are unintelligible. Setting aside the fact that
the court referenced the tape several times in
its order and it is not ‘blatantly contradicted,’
by Mr. York’s version of the events, the tape
does not establish that the officers are entitled
to summary judgment. Instead, accepting Mr.

18
York’s version of the events as true, the fact
finder could easily find constitutional violations.”
York v. City of Las Cruces, 523 F.3d 1205, 1210-11 (10th
Cir., 2008).
In Sears v. Roberts, 922 F.3d 1199, 1208-09 (11th Cir.
2019):
“[T]here’s a big difference between the record
evidence presented in Scott and the evidence
proffered here. In Scott, the record evidence
that blatantly contradicted the plaintiff ’s
version of events was a videotape of the car
chase at issue. Id. at 378-79, 127 S. Ct. at 1775.
Here, the officers’ documentary evidence
consists mainly of various forms of their
own testimony. . . . Those reports just pit the
correctional officers’ word against Sears’ word.
That is different from Scott where a videotape
of the incident definitively established what
happened and what did not. See id. at 380, 127
S. Ct. at 1776; see also Morton v. Kirkwood, 707
F.3d 1276, 1284 (11th Cir. 2013) (affirming denial
of summary judgment because, absent a video
recording of the incident, defendant’s forensic
evidence did ‘not so utterly discredit [plaintiff’s]
testimony that no reasonable jury could believe
it’). At this stage in the proceedings, we must
resolve the conflict of evidence in favor of
Sears. The district court erred by weighing
the evidence and making its own credibility
determinations at the summary judgment
stage.” (Emphasis added).

19
Whether a person’s actions have risen to a level
warranting deadly force is a question of fact best reserved
for a jury. In the instant case, the Eleventh Circuit
opinion usurped the jury’s factfinding function, labeling
the district court’s review as unreasonable and “blatantly
contradicted.” According to the Eleventh Circuit opinion,
no reasonable person could listen to the dispatch tape
and not come to the conclusion that the deadly force was
necessary and justified. In fact, a reasonable person,
that being the district court judge who actually listened
to the dispatch tape, as well as reviewed all the forensic
evidence and independent witness testimony presented by
the non-moving party, concluded that there were material
facts in dispute.
Although “this Court is not equipped to correct
every perceived error coming from the lower federal
courts,” it did intervene where the lower court “credited
the evidence of the party seeking summary judgment
and failed properly to acknowledge key evidence offered
by the party opposing that motion” to correct “a clear
misapprehension of summary judgment standards in light
of our precedents.” Tolan, 134 S.Ct. at 1868.
“Our failure to correct the error made by the
courts below leaves in place a judgment that
accepts the word of one party over the word of
another. It also continues a disturbing trend
regarding the use of this Court’s resources. We
have not hesitated to summarily reverse courts
for wrongly denying officers the protection
of qualified immunity in cases involving the
use of force. But we rarely intervene where
courts wrongly afford officers the benefit

20
of qualified immunity in these same cases.
The erroneous grant of summary judgment
in qualified immunity cases imposes no less
harm on “‘society as a whole,’” than does the
erroneous denial of summary judgment in such
cases. We took one step toward addressing this
asymmetry in Tolan . 572 U.S., at ––––, 134
S.Ct., at 1868. We take one step back today.”
Salazar–Limon v. Houston, 137 S.Ct. 1277, 1282-3 (2017),
Justice Sotomayor, joined by Justice Ginsburg, dissenting.
In the instant case, the dispatch tape, the very
evidence which the court relied upon to reverse the district
court, completely discredits it ruling. To allow the findings
of the Eleventh Circuit to stand would require ignoring
the patently contradicting evidence and lack of evidence
on the audio tape in question.
II. The Eleventh Circuit, having improperly substituted
its findings of disputed material facts based upon
the moving parties’ version of the evidence and
accepting pendent jurisdiction, is in conflict with
the decisions of this Court, several Courts of
Appeals and Florida courts.
Based upon the moving parties’ version of the disputed
facts, the Eleventh Circuit substituted its version of
the findings of fact and, exercised pendent jurisdiction
over claims that were not before the court claiming that
they were “inextricably intertwined” with the denial of
qualified immunity.” (App. A, p. 7a-8a, n.2).
In sharp contrast, the district court based upon its
review of the evidence presented by the non-moving party

21
had properly denied Respondents’ summary judgment
motions as to Petitioner’s state tort claims and her §1983
Monell claim. Based upon the district court’s findings, said
state and federal Monell claims would not be “inextricably
intertwined” with the claims against Respondents Israel
and Wengert, individually. As the Eleventh Circuit has
stated in the past, “[a]lthough interlocutory review of the
immunity available to Defendants Bishop and Powers
individually is permissible, there is no pendent party
appellate jurisdiction to permit us to review the claim
against a separate defendant, Sheriff Cannon in his official
capacity because immunity issues are not inextricably
interwoven in that claim.” Jones v. Cannon, 174 F.3d 1271,
1293 (11th Cir. 1999).
The municipal liability claims herein raise entirely
separate disputed facts and issues of whether the Broward
Sheriff’s Office (Israel) was negligent in its hiring,
retention and supervision of Wengert, and/or whether it
was deliberately indifferent in its hiring, supervision and
discipline of its deputies which was the moving force that
caused the shooting of Steven Thompson by Wengert.
This is not an issue that must be determined – or even
considered – in resolving the immunity claims. Jones, 174
F.3d at 1293-4.
Official-capacity liability and qualified immunity
involve fundamentally different inquiries, even if they
arguably share some common ground. Jones, 174 F.3d at
1292-93. Where separate defendants brought separate
official-capacity and qualified-immunity claims, while
the “defendants’ claims shared a common question—
i.e., whether the plaintiff’s constitutional rights were
violated—one common question did not make the claims
‘inextricably intertwined.’” Id. at 1279, 1283-86, 1293.

22
Finally, as to the question regarding sovereign
immunity for the official capacity state law claim, the
Florida Supreme Court and the Eleventh Circuit have
determined that claims of sovereign immunity under
Florida state law are not entitled to interlocutory review.
Jones, 174 F.3d at 1293.
It was improper for the Eleventh Circuit to accept
pendent jurisdiction based upon their substituted findings
of fact which were “blatantly contradicted” by the record
evidence presented by the non-moving party.
CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that this Honorable Court grant certiorari.
Respectfully submitted,

Barbara A. Heyer
Counsel of Record
Heyer & A ssociates, P.A.
1311 S.E. 4th Avenue
Fort Lauderdale, FL 33316
(954) 522-4922
civilrtslaw@hotmail.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MAY 17, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10776
D.C. Docket No. 0:16-cv-61595-MGC
DONNETT M. TAFFE, PERSONAL
REPRESENTATIVE OF THE ESTATE OF
STEVEN JEROLD THOMPSON, DECEASED,
Plaintiff-Appellee,
versus
GERALD E. WENGERT, IN HIS
INDIVIDUAL CAPACITY, SCOTT ISRAEL,
IN HIS INDIVIDUAL CAPACITY, SCOTT
ISRAEL, IN HIS OFFICIAL CAPACITY,
Defendants-Appellants.
Appeals from the United States District Court
for the Southern District of Florida
May 17, 2019, Decided

2a
Appendix A
Before WILSON, JILL PRYOR, and SUTTON,*
Circuit Judges.
PER CURIAM:
Deputy Sheriff Gerald Wengert shot and killed Steven
Jerold Thompson while out on a dispatch call regarding
a suspected armed robbery. Thompson’s sister and
personal representative, Donnett Taffe, subsequently
sued Wengert in his individual capacity, alleging that he
violated Thompson’s Fourth and Fourteenth Amendment
rights by using excessive deadly force. Taffe also sued the
former Broward County Sheriff, Scott Israel, in both his
individual and official capacities for the negligent hiring,
training, and supervision of Wengert. The district court,
citing disputed issues of material fact about the shooting,
denied qualified immunity to both Wengert and Israel
and denied their motion for summary judgment on all
claims. Wengert, Israel, and the Sheriff’s Office appeal
that ruling.
After careful review and with the benefit of oral
argument, we conclude that Taffe failed to establish a
genuine dispute of material fact that would preclude
summary judgment. Accordingly, we are compelled to
reverse the district court’s denial of summary judgment
on all claims.

Honorable Jeffrey S. Sutton, United States Circuit Judge for
the Sixth Circuit, sitting by designation.
*

3a
Appendix A
I. Background
A.

Facts

“In exercising our interlocutory review jurisdiction
in qualified immunity cases, we are not required to make
our own determination of the facts for summary judgment
purposes; we have discretion to accept the district court’s
findings, if they are adequate. But we are not required
to accept them.” Cottrell v. Caldwell, 85 F.3d 1480, 1486
(11th Cir. 1996) (internal citations omitted). Because the
district court’s findings were not adequate, we undertake
our own review of the record.
In June 2014, two women called the police to report
that two men had robbed them of their belongings and
cellphones at gunpoint. Deputies from the Broward
Sheriff ’s Office, including Deputy Wengert, were
dispatched to investigate. The callers described the
robbers as two black males with low-cut hair and dark
clothing. One suspect was 5’10” with a thin build and had
a black semiautomatic weapon. The other suspect was
5’8” with a heavy-set build. At least one suspect wore
“bright sneakers.” A deputy asked dispatch if the victims
noticed whether the suspects had any distinguishing
characteristics. Dispatch responded, “[The victims are]
advising no. She’s saying they could have had it but she
was just too sidetracked looking at the weapon.”
Using a GPS application, deputies quickly tracked one
of the stolen cellphones to Cypress Grove Apartments.
Officers from the Lauderhill Police Department joined

4a
Appendix A
the search. Law enforcement tracked the stolen phone
to the parking lot at the southern end of the apartment
complex. When the deputies neared the parking lot, they
encountered Thompson and a group of other men.
Thompson was a 26-year-old black male. He was
approximately 5’8” and weighed 210 pounds. That evening,
Thompson was wearing primarily black clothing, although
his shorts also had a white and orange pattern. His
sneakers were black and orange, and he was wearing a
hat with white lettering. Thompson was close to the stolen
phone, based on the GPS data. When the officers reached
the parking lot, Thompson quickly turned around and
reentered the apartment building. Officers demanded
Thompson stop, but Thompson did not respond. Deputies
Wengert and Clark chased after Thompson into the
building.
Deputy Wengert later described what happened
inside. He testified that after entering the apartment
hallway, Wengert saw Thompson in front of him with a
firearm pointed in Wengert’s direction. Thompson fired
what Wengert believed to be two shots, which missed
Wengert. Thompson kept running down the hallway,
keeping his firearm pointed behind him towards Wengert.
Wengert fired and hit Thompson. Wengert told Thompson
to drop his gun and continued to fire when Thompson
did not comply. Wengert stopped firing when he saw that
Thompson had dropped the gun and it was a safe distance
away from him. An audio recording of the shooting is
consistent with this testimony. The audio captures a
distinct series of events: one or two shots, a call over the
radio of “shots fired,” someone—presumably Wengert—

5a
Appendix A
shouting “put the gun down,” and then a barrage of
gunfire. Wengert ultimately fired 25 rounds. Eight hit
Thompson from behind. A ninth hit him while he was on
the ground.
By the time the g unfire ceased, multiple law
enforcement officers had converged upon the hallway.
Officer Weeks from the Lauderhill Police Department—
an agency wholly separate from the Broward Sheriff’s
Office—was first to arrive at the scene. Officer Weeks
testified that almost immediately after the shooting,
he peered into the hallway, where he saw a gun next to
Thompson. At the time Officer Weeks saw the gun next to
Thompson, Wengert was still behind a wall in his position
of cover, and no other deputy or officer had entered the
hallway.
Deputy Yoder of the Broward Sheriff’s Office testified
that he arrived at the scene twenty to thirty seconds
after the gunfire ceased. Deputy Yoder testified that he
approached Thompson, who was still alive and cursing at
the officers. Deputy Yoder testified that as he approached,
he saw a gun next to Thompson. Deputy Yoder then
testified that he kicked the gun down the hallway and
away from Thompson to ensure that he could not reach
it.1 Deputy Yoder estimated that the gun slid twenty to
twenty-five feet down the hallway.
1. We acknowledge, as Taffe points out, that on the night of
the shooting, Deputy Yoder stated that the deputies did not touch
the weapon. After reading Deputy Yoder’s later deposition, we
understand that statement to mean the deputies did not touch the
weapon or remove it from the hallway after Yoder had kicked the
weapon to put it out of Thompson’s reach.

6a
Appendix A
Officers then handcuffed Thompson and called EMS.
After the shooting, Wengert moved his car to the side of
the building where the incident occurred. He eventually
went back into the building. EMS transported Thompson
to a local hospital, but he died that night from his injuries.
After the shooting, investigators recovered a gun—a
Diamondback Luger—from the apartment hallway. A final
investigative report placed the gun 51 feet from where
Thompson’s body had come to rest. Investigators also
recovered a casing from the Diamondback Luger. The
gun tested positive for Thompson’s DNA.
B. Procedural History
Thompson’s personal representative, Donnett Taffe,
sued the defendants in Florida state court. The defendants
removed the case to federal court. Taffe filed an Amended
Complaint with five claims:
• Count I: State law assault and battery claim against
Wengert for unlawfully shooting Thompson;
• Count II: Claim under 42 U.S.C. § 1983 against
Wengert, in his individual capacity, for unlawfully
shooting Thompson (asser ting Fou r th and
Fourteenth Amendment claims for using excessive
force);
• Count III: State law tort claim against Israel, in his
official capacity, for negligent hiring, supervision,
and retention, resulting in Thompson’s wrongful
death;

7a
Appendix A
• Count IV: Claim under 42 U.S.C. § 1983 and state
tort law against Israel, in his individual capacity,
for negligent hiring, supervision, and retention,
resulting in Thompson’s wrongful death; and
• Count V: Claim under 42 U.S.C. § 1983 against
Israel, in his official capacity, for negligent hiring,
supervision, and retention, resulting in Thompson’s
wrongful death
The defendants sought summary judgment on all counts,
and both Wengert and Israel argued that they were
entitled to qualified immunity on the claims against them
in their individual capacities.
As the district court recognized, the parties dispute
what happened that night. Taffe alleges that Thompson
had nothing to do with the robbery, did not fit the robbery
suspects’ descriptions, was not armed, and did not shoot
at Wengert. Taffe also alleges that Wengert planted the
gun recovered at the scene. The defendants maintain,
however, that Thompson did meet the description of
the robbery suspect, was armed, and did fire the first
shot at Wengert, who returned fire until the threat was
subdued. The officers firmly dispute that any gun was
planted at the scene. The district court, finding these
stories incompatible, concluded that disputed issues of
material fact remained. The district court denied qualified
immunity to both Wengert and Israel and denied the
Defendants’ joint motion for summary judgment on all
claims. All Defendants appealed. 2
2. On appeal, we asked the parties whether we have pendent
appellate jurisdiction to review the district court’s denial of summary

8a
Appendix A
II. Standard of Review
We review a district court’s denial of summary
judgment on qualified immunity grounds de novo.
Durruthy v. Pastor, 351 F.3d 1080, 1084 (11th Cir. 2003).
Generally, “[w]e resolve all issues of material fact in favor
of the plaintiff, and then determine the legal question of
whether the defendant is entitled to qualified immunity
under that version of the facts.” Id. But “facts must be
viewed in the light most favorable to the nonmoving party
only if there is a ‘genuine’ dispute as to those facts.” Scott
v. Harris, 550 U.S. 372, 380, 127 S. Ct. 1769, 167 L. Ed.
2d 686 (2007) (emphasis added) (quoting Fed. R. Civ.
P. 56(c)); see also Penley v. Eslinger, 605 F.3d 843, 853
(11th Cir. 2010) (“Though factual inferences are made
in [Plaintiff’s] favor, this rule applies only to the extent
supportable by the record.”). “When opposing parties tell
two different stories, one of which is blatantly contradicted
by the record, so that no reasonable jury could believe
it, a court should not adopt that version of the facts for
purposes of ruling on a motion for summary judgment.”
Scott, 550 U.S. at 380. And “[w]here the record taken as
a whole could not lead a rational trier of fact to find for
the non-moving party, there is no genuine issue for trial.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586-87, 106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986)
(internal quotation omitted).
judgment on the claims against the Sheriff’s Office. Because those
claims are “inextricably intertwined” with the denial of qualified
immunity, we exercise pendent appellate jurisdiction over those
claims. See King v. Cessna Aircraft Co., 562 F.3d 1374, 1379 (11th
Cir. 2009).

9a
Appendix A
III. Discussion
A.

Qualified Immunity

Qualified immunity shields government officials sued
in their individual capacities from liability when they
act within their discretionary authority and when their
conduct “does not violate clearly established statutory or
constitutional rights of which a reasonable person would
have known.” Harlow v. Fitzgerald, 457 U.S. 800, 818, 102
S. Ct. 2727, 73 L. Ed. 2d 396 (1982). “Because qualified
immunity is a defense not only from liability, but also from
suit, it is important for a court to ascertain the validity
of a qualified immunity defense as early in the lawsuit as
possible.” Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir.
2002) (internal quotation omitted).
To invoke qualified immunity, an official must first
demonstrate that he was acting within the scope of his
discretionary authority. Maddox v. Stephens, 727 F.3d
1109, 1120 (11th Cir. 2013). The burden then shifts to the
plaintiff to establish both that the officer’s conduct violated
a constitutionally protected right and that the right was
clearly established at the time of the misconduct. Id. We
may decide these issues in either order, but to survive
a qualified immunity defense, the plaintiff must satisfy
both. Id. at 1120-21. “If the conduct did not violate a
constitutional right, the inquiry ends there.” Robinson v.
Arrugueta, 415 F.3d 1252, 1255 (11th Cir. 2005).

10a
Appendix A
B. Section 1983 Claim Against Wengert
Because there is no doubt that Wengert was acting
within his discretionary authority the night of the shooting,
the burden shifts to Taffe to show, at a minimum, that
Wengert’s conduct violated a constitutionally protected
right. Maddox, 727 F.3d at 1120.
Taffe first argues that Wengert did not have probable
cause to arrest Thompson. “To determine whether an
officer had probable cause for an arrest, we examine the
events leading up to the arrest, and then decide whether
these historical facts, viewed from the standpoint of an
objectively reasonable police officer, amount to probable
cause.” District of Columbia v. Wesby, 138 S. Ct. 577,
586, 199 L. Ed. 2d 453 (2018) (internal quotation omitted).
Probable cause depends on the totality of the circumstances
and “requires only a probability or substantial chance of
criminal activity, not an actual showing of such activity.”
Illinois v. Gates, 462 U.S. 213, 244 n.13, 103 S. Ct. 2317, 76
L. Ed. 2d 527 (1983). Arresting officers are also entitled
to qualified immunity if the officer had arguable probable
cause for the arrest. See Ferraro, 284 F.3d at 1195.
“Arguable probable cause exists where reasonable officers
in the same circumstances and possessing the same
knowledge as the Defendant[ ] could have believed that
probable cause existed to arrest.” Id. (internal quotation
omitted). At this stage, in determining whether Wengert
had probable cause or arguable probable cause to arrest
Thompson, we view the facts—to the extent supported
by the record—in the light most favorable to Taffe. See
Penley, 605 F.3d at 853.

11a
Appendix A
After reviewing the record, we find that Wengert had
at least arguable probable cause to arrest Thompson. The
totality of the circumstances would have led the officers
to believe that Thompson matched the description of
the robbery suspect. Dispatch reported that one of the
robbery suspects was a black male who was 5’8” with a
heavy-set build. The suspects were wearing dark clothing
and one had bright sneakers. When the officers tracked
the stolen cell phone to the Cypress Grove Apartments,
they encountered Thompson. Thompson was a black male
who was approximately 5’8” and weighed 210 pounds. He
was wearing primarily dark clothing and had black and
orange sneakers. Thompson was very close to the GPS
location of the stolen phone. Under the totality of the
circumstances, Thompson was thus a plausible match, and
perhaps even a strong match, for the robbery suspect. 3 A
reasonable officer in the same circumstances as Wengert
would have believed he had probable cause to arrest
Thompson.
Taffe next argues that Wengert violated Thompson’s
constitutional rights by using excessive deadly force
against him. Apprehending a suspect through the
3. Taffe argues that officers should have known that Thompson
did not match the robbery suspect because Thompson had
distinguishing characteristics—such as gold teeth and scars—and
the officers were affirmatively told that the suspects did not have such
characteristics. The dispatch audio, however, states that the victims
could not provide distinguishing characteristics for the suspects.
The officers did not have affirmative knowledge that suspects should
lack distinguishing characteristics, and thus there was no reason
for them to conclude that Thompson did not match the description
of the robbery suspect.

12a
Appendix A
use of deadly force is a seizure subject to the Fourth
Amendment’s reasonableness requirement. Tennessee
v. Garner, 471 U.S. 1, 7, 105 S. Ct. 1694, 85 L. Ed. 2d 1
(1985). An officer may use deadly force against a person
he reasonably perceives as posing an imminent threat of
serious physical harm to an officer or others. Arrugueta,
415 F.3d at 1256; see also Hammett v. Paulding Cty., 875
F.3d 1036, 1048 (11th Cir. 2017) (explaining that an officer
may use deadly force when he reasonably believes that his
own life is in peril).
Taffe alleges that Thompson was unarmed on the
night of the shooting and thus could not fire the first shot.
Taffe further asserts that Wengert (or other deputies)
planted a gun at the scene after the shooting.4 If true,
Wengert would not be entitled to qualified immunity or
summary judgment on Taffe’s excessive force claim. But
to preclude summary judgment, Taffe cannot rely on
“mere allegations” in her pleadings, and instead must
put forward evidence that creates a genuine dispute of
material fact. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986). Taffe
has not met this burden.
Taffe argues that, contrary to Wengert’s testimony,
Thompson was not armed that night. In support, she
offers deposition testimony from Imani Key, a friend of
Thompson, who testified that someone named Nate told
4. Taffe’s Amended Brief implied that Wengert himself planted
the gun near Thompson’s body. At oral argument, Taffe’s counsel
maintained that Deputies Koutsofios and Yoder planted the gun, and
that Wengert planted the casing.

13a
Appendix A
her that he did not see Thompson with a gun. Nate did not
testify. Taffe also offers deposition testimony from Rodney
Moss, another friend of Thompson, as definitive proof that
Thompson did not have a gun. Moss testified that earlier
on the day of the shooting, he did not see Thompson with
a gun. Moss also stated, however, “[a]nything after that,
I wasn’t there so I wouldn’t know.”
Key’s testimony is inadmissible hearsay. We “may
consider a hearsay statement in passing on a motion
for summary judgment [only] if the statement could be
reduced to admissible evidence at trial or reduced to
admissible form.” Jones v. UPS Ground Freight, 683
F.3d 1283, 1293-94 (11th Cir. 2012) (internal quotation
omitted). Taffe fails to explain how Key’s testimony
could be reduced to admissible evidence at trial, and
we therefore decline to consider it. Additionally, Moss’s
testimony indicates only that Thompson was unarmed
earlier that day. Taffe therefore has not put forward any
admissible testimony—credible or not—that Thompson
was not armed on the evening of the incident.
Taffe also argues, contrary to Wengert’s testimony,
that Thompson did not fire the first shot. In support, she
offers testimony from some apartment residents who
do not remember hearing a single defining shot, only a
general barrage of gunfire. Officer Weeks also testified
that he only remembered hearing general gunfire.
In addition, no apartment resident testified that they
remembered hearing Wengert telling Thompson to drop
a gun. Wengert, on the other hand, presented testimony
from officers and an apartment resident who remember

14a
Appendix A
hearing a defining shot before the rest of the gunfire
broke out.
Presented alone, these conflicting accounts would
likely be sufficient to establish a genuine dispute that
Thompson did not fire at Wengert. But the audio of the
shooting resolves these conflicting accounts. The audio
captures one or two initial shots, a call over the radio of
“shots fired,” someone—presumably Wengert—shouting
“put the gun down,” and then a barrage of gunfire.
Taffe finally alleges that Wengert planted a gun at
the scene after the shooting. Wengert testified that after
the shooting, he left the hallway and moved his car around
to the side of building where the incident occurred. Taffe
strongly implies that when Wengert did so, he obtained a
new gun and casing, swiped the gun onto Thompson’s hand
to pick up Thompson’s DNA, and dropped the gun in the
hallway. 5 Taffe argues that Wengert had time to execute
this plan because the deputies staged EMS outside and
prevented EMS from treating Thompson until Wengert
could finish planting the gun. Moreover, Taffe argues that
the other officers never saw the gun near Thompson, and
instead the officers only saw the gun “in the middle of
the hallway.”6
5. At oral argument, however, Taffe’s counsel maintained that
Deputies Koutsofios and Yoder planted the gun, and that Wengert
planted the casing.
6. Contrary to Taffe’s characterization, Officer Michel testified
that immediately after the shooting, he saw the gun “a couple of feet
away” from Thompson. Officer Michel also stated that the gun was
“in the middle of the hallway,” but this is consistent with the gun

15a
Appendix A
A fter careful review, we find that the record
evidence contradicts Taffe’s version of events. Every
law enforcement officer who had an opportunity to see
the scene testified that they saw the gun next to or
relatively near Thompson immediately after the shooting.7
Moreover, there is no evidence that deputies prevented
EMS from treating Thompson to give themselves time to
plant a gun. EMS records show that fire rescue made their
way towards Thompson approximately one minute after
arriving on the scene. They began treating Thompson’s
injuries another minute later.
In their depositions, the law enforcement officers—
including those unaffiliated with the Broward Sheriff’s
Office—explicitly refuted the allegation that anyone
planted a gun at the scene. Officer Weeks, who had never
met Wengert before that night, testified that if someone
had planted a gun, he would have considered such behavior
to be a crime and he would have reported it.
Ultimately, the allegation that Wengert or another
deputy planted a gun in the hallway, is, at best, speculation.
And “[a]lthough all reasonable inferences are to be drawn
in favor of the nonmoving party, an inference based on
being close to Thompson, as Thompson was shot and went down in
the middle of the hallway.

7. We acknowledge Taffe’s argument that the officers’ testimony
about the placement of the gun immediately after the shooting is not
perfectly consistent. For example, one remembers the gun a “couple
feet away from Thompson,” another about 10 feet, and another 1520 feet. We find this discrepancy insufficient to preclude summary
judgment in the face of all other evidence.

16a
Appendix A
speculation and conjecture is not reasonable.” Hammett,
875 F.3d at 1049 (internal quotation omitted).
To preclude summary judgment, Taffe must go beyond
the allegations in her pleadings and put forward evidence
that creates a genuine dispute of material fact. Liberty
Lobby, 477 U.S. at 248. But “[a] genuine dispute requires
more than some metaphysical doubt as to the material
facts.” Garczynski v. Bradshaw, 573 F.3d 1158, 1165
(11th Cir. 2009) (per curiam) (internal quotation omitted).
Instead, a genuine dispute arises when “the evidence is
such that a reasonable jury could find for the nonmovant.”
Hammett, 875 F.3d at 1049. Here, no reasonable jury could
accept Taffe’s version of events based on the evidence
in the record. 8 The district court’s denial of qualified
immunity relied largely on Taffe’s allegations, not the
evidence in the record. The evidence instead supports
Wengert’s version of the facts: Thompson was armed,
fired the first shot, and only then did Wengert return fire.
Officers may use deadly force against individuals they
reasonably perceive pose an imminent threat of serious
physical harm to the officers or others. Arrugueta, 415
F.3d at 1256. Under that standard, Wengert did not use
excessive force. Wengert is thus entitled to qualified
immunity and summary judgment on this claim.
8. This does not mean that a reasonable jury could never
conclude that an officer planted a gun to cover up the shooting of
an unarmed citizen. But a reasonable jury could not accept Taffe’s
theory because the record evidence does not support Taffe’s version
of events.

17a
Appendix A
C.

State Law Assault and Battery Claim

Taffe also sued Wengert under Florida law for assault
and battery. The district court denied summary judgment
on this claim.
“Pursuant to Florida law, police officers are entitled
to a presumption of good faith in regard to the use of
force applied during a lawful arrest, and officers are
only liable for damage where the force used is ‘clearly
excessive.’” Davis v. Williams, 451 F.3d 759, 768 (11th Cir.
2006) (quoting City of Miami v. Sanders, 672 So. 2d 46, 47
(Fla. 3d DCA 1996)). An officer in Florida is also entitled
to use deadly force when “he or she reasonably believes
[such force] to be necessary to defend himself or herself
or another from bodily harm while making the arrest.”
Fla. Stat. § 776.05(1). Because we have already concluded
that Wengert’s force was objectively reasonable under the
circumstances, we reverse the district court and grant
summary judgment to Wengert on this claim.
D.

State Law Negligent Hiring and Retention
Claim

Taffe sued Sheriff Israel under Florida state tort
law for the negligent hiring, supervision, and retention
of Wengert, resulting in Thompson’s wrongful death. The
district court denied summary judgment on this claim.
To succeed on a negligent hiring or retention claim,
the plaintiff must demonstrate, among other things, that
the employee committed an underlying willful tort. See,

18a
Appendix A
e.g., Magill v. Bartlett Towing, Inc., 35 So. 3d 1017, 1020
(Fla. 5th DCA 2010). Because Taffe has not done so, these
claims cannot succeed as a matter of law. Accordingly, we
reverse the district court and grant summary judgment
to Sheriff Israel on this claim.
E. Supervisory Liability and Municipal Liability
Claims
Finally, Taffe sued Sheriff Israel in both his individual
and official capacities for the negligent hiring, supervision,
and retention of Wengert, resulting in Thompson’s
wrongful death. The district court denied summary
judgment on both claims.
“Supervisory liability [under § 1983] occurs either
when the supervisor personally participates in the alleged
constitutional violation or when there is a causal connection
between actions of the supervising official and the alleged
constitutional deprivation.” Brown v. Crawford, 906
F.2d 667, 671 (11th Cir. 1990). And “to impose § 1983
liability on a municipality, a plaintiff must show: (1)
that his constitutional rights were violated; (2) that the
municipality had a custom or policy that constituted
deliberate indifference to that constitutional right; and (3)
that the policy or custom caused the violation.” McDowell
v. Brown, 392 F.3d 1283, 1289 (11th Cir. 2004).
Because Taffe has not established that Thompson’s
constitutional rights were violated, neither the supervisory
liability claim nor the municipal liability claim can succeed
as a matter of law. We thus reverse the district court

19a
Appendix A
and grant summary judgment to Sheriff Israel and the
Sheriff’s Office on both claims.
IV. Conclusion
Thompson’s death was undoubtedly tragic. But no
reasonable jury could accept Taffe’s theory based on
the record evidence. Allowing such a case to proceed to
trial would “stretch the summary judgment standard far
beyond its breaking point.” Hammett, 875 F.3d at 1048.
Accordingly, we reverse the judgment of the district
court and grant qualified immunity and summary
judgment to Deputy Wengert, Sheriff Israel, and the
Sheriff’s Office on all claims.
REVERSED.

20a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, FILED JANUARY 31, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-61595-Civ-COOKE/TORRES
DONNETT M. TAFFE, PERSONAL
REPRESENTATIVE OF THE ESTATE OF
STEVEN JEROLD THOMPSON, DECEASED,
Plaintiff,
vs.
GERALD E. WENGERT AND SCOTT J. ISRAEL,
Defendants.
January 31, 2018, Decided
January 31, 2018, Entered on Docket
ORDER ON MOTION FOR SUMMARY JUDGMENT
This action arises from a police shooting that resulted
in the death of a young black man. Plaintiff Donnett M.
Taffe, Personal Representative of the Estate of Steven
Jerold Thompson, deceased, brings suit against the
shooter, Defendant Gerald E. Wengert, in his official
capacity as a deputy sheriff for the Broward County
Sheriff’s Office (“BCSO”). Plaintiff also asserts claims

21a
Appendix B
against Defendant Scott J. Israel, both individually and
in his official capacity as Broward County Sheriff. I have
jurisdiction under 28 U.S.C. §§ 1331 and 1367.
Pending is Defendants’ Joint Motion for Summary
Judgment. (ECF No. 102). For the reasons that follow, I
deny the Motion.
I. BACKGROUND
Wengert began his career as a law enforcement
officer in 1999 with the Cooper City Police Department
(“CPD”), prior to its merger with BCSO in 2004. (ECF
No. 100 ¶¶ 1-2). Before hiring Wengert, CPD screened and
interviewed him, and required him to pass various tests,
including psychological examinations and a polygraph.
(Id. ¶ 3). Wengert also submitted to a Florida Department
of Law Enforcement background investigation. (Id. ¶ 4).
According to Defendants, nothing CPD learned about
Wengert during the hiring process called his fitness for
the job into question. (ECF No. 102 at 17-18).
Now a deputy for BCSO, Wenger t reg ula rly
participates in training courses and in-service training
(ECF No. 100 ¶ 9), and earns consistently high marks in
his performance evaluations. (Id. 100 ¶ 5). One evaluator
noted that Wengert “is an excellent police officer and . . . is
a pleasure to supervise.” (ECF No. 100-7 at 42). Another
commented that Wengert is an “exemplary employee” who
presents a “positive image to the community, businesses,
and internal departments.” (ECF No. 100-7 at 14, 16).
Indeed, according to Defendants, Wengert has received

22a
Appendix B
internal commendations and unsolicited praise from the
community throughout his service at CPD and BCSO.
(ECF No. 100 ¶¶ 7-8).
But Wengert’s record as a deputy sheriff is not
immaculate. Between 2004-2014, he was involved in more
than seventy documented use-of-force incidents, eight of
which resulted in Internal Affairs (“IA”) investigations.1
(ECF No. 121-8). He was suspended from July 2012 to May
2013 after being charged with falsifying records, official
misconduct, and battery. 2 (ECF No. 120 ¶ 5). He was
suspended again in June 2015 pending a State Attorney’s
investigation into a use-of-force incident that resulted in
injuries to a suspect. (Id.). In both instances, however, he
was cleared of wrongdoing and reinstated. (Id.).
Prior to the shooting, BCSO had an Early Intervention
Program (“EIP”) which required IA to provide written
notice to command-level staff “[w]hen employees are
identified as being involved in three or more incidents
in three months or five incidents in one year.” (ECF
No. 121-22 at 5). “The EIP report makes no conclusions
or determinations concerning job stress, performance
problems, or validity of any pending or active investigations
of· misconduct. The report is designed as a resource to
assist supervisors in evaluating and guiding employees.”
(Id.). In theory, command-level staff reviews the EIP
report, discusses it with the involved employee, and
1. In each instance, BCSO found Wengert’s conduct to be
compliant with BCSO policies. (ECF No. 120 ¶ 5).
2. State v. Gerald Wengert, No. 12-10446CF10A.

23a
Appendix B
suggests, in writing, intervention options to higher-ups.
(Id.). According to Plaintiff, IA issued seven EIP reports
about Wengert between 2005 and 2015. (Id.). Despite those
warnings, no one at BCSO intervened to disrupt Wengert’s
alleged pattern of misconduct. (Id.)
On June 5, 2014, Wengert and several other BCSO
deputies were responding to a dispatch call regarding a
suspected armed robbery in Lauderhill, Florida. (ECF
No. 100 ¶ 29-30). Dispatch provided the deputies with
descriptions of the suspects based on information gathered
from the victims. (Id. ¶ 31). “Subject #1 was described
to be in his 20s, [5’9” to 5’10”], 160-170 pounds, low cut
wearing dark shirt with dark shorts,” and “Subject #2
was described to be 20-30 [years old, 5’8” to 5’9”], 190200 pounds, also low cut, dark shirt with dark shorts and
bright shoes possibly orange.” (Id.).
Two cell phones — a Sprint phone and an iPhone —
were stolen during the robbery. (ECF No. 120 ¶ 32). Using
cell-phone tracking software, BCSO located the Sprint
phone in Pembroke Pines, some nineteen miles from the
crime scene. (Id.). The iPhone, on the other hand, was at
Cypress Grove Apartments, just four miles away. (Id.) The
deputies converged on that location to investigate. (Id.).
Once on site, the deputies began a search of the
apartment complex. (ECF Nos. 100 ¶ 34, 120 ¶ 34).
One of the deputies tracking the iPhone observed that
it was transmitting from the center of a parking lot in
the southern part of the complex. (ECF No. 120 ¶ 35).
When the deputies arrived at the south parking lot, they

24a
Appendix B
observed two people standing in the area of the iPhone
signal. (ECF Nos. 100 ¶ 35, 120 ¶ 35). As the deputies
approached them, they saw Thompson, who was at the
complex visiting a friend, walk out one of the buildings.
(ECF Nos. 100 ¶ 36, 120 ¶ 35). Wengert announced himself
as a police officer ordered Thompson to stop. (ECF No.
100 ¶ 36).
Thompson was a twenty-six year old black male
standing 5’6” tall and weighing 210 pounds. (ECF Nos. 75
¶ 47, 120 ¶ 36). He had a moustache and beard, numerous
tattoos, a noticeable abrasion-type scar along the left side
of his chin and his front four teeth were capped in gold.
(ECF Nos. 75 ¶ 47, 120 ¶ 36). He was wearing a black,
sleeveless tank top and oversized athletic shorts. (ECF
Nos. 75 ¶ 47, 120 ¶ 36). The shorts had a large white
diamond design with a wide orange border that ran from
the waistband to the hem on each side of the garment.
(ECF Nos. 75 ¶ 47, 120 ¶ 36). He also was wearing a
baseball cap with large silver letters spelling AKOO
on the front and a pair of Nike Airmax shoes that were
predominately black and orange. (ECF Nos. 75 ¶ 47, 120
¶ 36).
When Thompson saw the deputies, he turned around
and reentered the building. (ECF Nos. 100 ¶ 36, 120 ¶ 36).
Wengert claims Thompson also reached into his pants for
what Wengert assumed to be firearm. (Id.). Wengert and
another deputy pursued Thompson into the building, while
other deputies took up positions outside. (ECF Nos. 100
¶ 37-40, 120 ¶ 37-40).

25a
Appendix B
Inside the building, Wengert encountered Thompson
in a corridor and opened fire. 3 (ECF No. 75 ¶ 51, 120 ¶¶ 3740). In total, Wengert fired twenty-five rounds, which
required him to reload. (ECF No. 75 ¶ 55, 120 ¶ 42). He hit
Thompson eight times from behind. (ECF No. 75 ¶ 52, 120
¶ 43). One shot shattered Thompson’s femur and caused
him immediately to fall. (ECF No. 120 ¶ 43). Wengert
fired the lethal ninth shot while Thompson was on the
ground. (Id.). It entered through his scrotum, perforating
his left testicle, the abdominal wall, liver, diaphragm, lung,
and ended up in his armpit. (ECF No. 75 ¶ 54, 120 ¶ 43).
Thompson died at the hospital later that night. (ECF No.
75 ¶ 60).
Israel travelled to the scene early the next day to
initiate an investigation. (Id. ¶ 62). According to Plaintiff,
the investigation was incomplete and designed to cover up
Wengert’s misconduct. (Id. ¶ 64). She alleges that Israel
relied exclusively on Wengert’s subjective justification for
his actions, and ignored any evidence that did not support
Wengert’s version of events. (Id. ¶ 64). As a result, Plaintiff
argues, “Wengert was not prosecuted for the killing of an
unarmed man.” (Id. ¶ 74).
Plaintiff brought this action on May 26, 2016 in Florida
state court. (ECF No. 1-1). Defendants removed (ECF No.
3. Defendants claim that Wengert and Thompson “exchanged
gun fire” and were in a “fire fight.” (ECF No. 100 ¶ 41). Plaintiff
disputes that assertion, arguing that Thompson was not even armed
when Wengert shot him. (ECF Nos. 75 ¶ 49, 120 ¶ 44). She points to
the fact that the only gun investigators found in the corridor was
fifty-one feet from Thompson’s body. (ECF No. 120 ¶ 43).

26a
Appendix B
1), and Plaintiff filed an Amended Complaint (ECF No.
75) stating five claims for relief:
Count I: State-law assault and battery claim
against Wengert, in his official capacity, for
unlawfully shooting Thompson (Id. ¶¶ 82-85);
Count II: Claim under 42 U.S.C. § 1983 against
Wengert, in his official capacity, for unlawfully
shooting Thompson (Id. ¶¶ 86-90);
Count III: State-law tort claim against
Israel, in his official capacity, for negligent
hiring, supervision, and retention, resulting
in Thompson’s wrongful death (Id. ¶¶ 91-101);
Count IV: Claim under 42 U.S.C. § 1983 and
state law against Israel, in his individual
capacity, for negligent hiring, supervision, and
retention, resulting in Thompson’s wrongful
death (Id. ¶¶ 102-109); and
Count V: Claim under 42 U.S.C. § 1983 against
BCSO for negligent hiring, supervision, and
retention, resulting in Thompson’s wrongful
death (Id. ¶¶ 110-23).
Defendants seek summary judgment on all Counts.
(ECF No. 102).

27a
Appendix B
II. STANDARD OF REVIEW
Summary judgment “shall be granted if the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any, show that there
is no genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of
law.” Allen v. Tyson Foods, Inc., 121 F.3d 642 (11th Cir.
1997) (quoting Fed. R. Civ. P. 56(c)) (internal quotations
omitted); Damon v. Fleming Supermarkets of Florida,
Inc., 196 F.3d 1354, 1358 (11th Cir. 1999). Thus, the entry
of summary judgment is appropriate “against a party who
fails to make a showing sufficient to establish the existence
of an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.” Celotex
Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct. 2548, 91 L.
Ed. 2d 265 (1986).
“The moving party bears the initial burden to show
the district court, by reference to materials on file, that
there are no genuine issues of material fact that should
be decided at trial.” Clark v. Coats & Clark, Inc., 929 F.2d
604, 608 (11th Cir. 1991). “Only when that burden has been
met does the burden shift to the non-moving party to
demonstrate that there is indeed a material issue of fact
that precludes summary judgment.” Id.
Rule 56 “requires the nonmoving party to go beyond
the pleadings and by her own affidavits, or by the
‘depositions, answers to interrogatories, and admissions
on file,’ designate ‘specific facts showing that there is a
genuine issue for trial.” Celotex, 477 U.S. at 324. Thus, the

28a
Appendix B
nonmoving party “may not rest upon the mere allegations
or denials of his pleadings, but must set forth specific facts
showing that there is a genuine issue for trial.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986) (internal quotation marks omitted).
“A factual dispute is genuine if the evidence is such
that a reasonable jury could return a verdict for the
non-moving party.” Damon, 196 F.3d at 1358. “A mere
‘scintilla’ of evidence supporting the opposing party’s
position will not suffice; there must be enough of a showing
that the jury could reasonably find for that party.” Abbes
v. Embraer Servs., Inc., 195 F. App’x 898, 899-900 (11th
Cir. 2006) (quoting Walker v. Darby, 911 F.2d 1573, 1577
(11th Cir. 1990)).
When deciding whether summary judgment is
appropriate, “the evidence, and all inferences drawn from
the facts, must be viewed in the light most favorable to the
non-moving party.” Bush v. Houston County Commission,
414 F. App’x 264, 266 (11th Cir. 2011).
III. DISCUSSION
Defendants seek summary judgment on four grounds:
(1) Wengert is entitled to qualified immunity (Counts I &
II); (2) Israel, in his official capacity, was not negligent in
implementing hiring, supervision, and retention policies
at BCSO (Count III); (3) Israel, in his individual capacity,
was not negligent in hiring, supervising, or retaining
Wengert (Count IV); and (4) there can be no municipal
liability under Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978) (Count V).

29a
Appendix B
A. Wengert: Qualified Immunity (Counts I & II)
Wengert claims he is entitled to qualified immunity.
“Qualified immunity protects government officials
performing discretionary functions from suits in their
individual capacities unless their conduct violates ‘clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Dalrymple v.
Reno, 334 F.3d 991, 994 (11th Cir. 2003) (quoting Hope v.
Pelzer, 536 U.S. 730, 739, 122 S. Ct. 2508, 153 L. Ed. 2d 666
(2002)). “Qualified immunity offers ‘complete protection
for government officials sued in their individual capacities
as long as ‘their conduct violates no clearly established
statutory or constitutional rights of which a reasonable
person would have known.’” Lee v. Ferraro, 284 F.3d 1188,
1193-94 (11th Cir. 2002) (quoting Thomas v. Roberts, 261
F.3d 1160, 1170 (11th Cir. 2001)).
“As the qualified immunity defense has evolved,
it provides ample protection to all but the plainly
incompetent or those who knowingly violate the law.”
Malley v. Briggs, 475 U.S. 335, 341, 106 S. Ct. 1092, 89 L.
Ed. 2d 271 (1986). To receive qualified immunity, a public
official must first prove that “he was acting within the
scope of his discretionary authority when the allegedly
wrongful acts occurred.” Courson v. McMillian, 939 F.2d
1479, 1487 (11th Cir. 1991) (citation omitted). The burden
then shifts to the plaintiff to show that qualified immunity
is not appropriate. Montoute v. Carr, 114 F.3d 181, 184
(11th Cir. 1997) (“Once an officer or official has raised the
defense of qualified immunity, the burden of persuasion
as to that issue is on the plaintiff.”).

30a
Appendix B
In Saucier v. Katz, 533 U.S. 194, 121 S. Ct. 2151, 150
L. Ed. 2d 272 (1977), the Supreme Court set forth a twopart test for evaluating a claim of qualified immunity. As
a “threshold question,” a court must ask, “[t]aken in the
light most favorable to the party asserting the injury,
do the facts alleged show the officer’s conduct violated
a constitutional right?” Lee, 284 F.3d at 1194 (quoting
Saucier, 533 U.S. at 201); and then, if a constitutional right
would have been violated under the plaintiff’s version of
the facts, the court must determine “whether the right
was clearly established.” Lee, 284 F.3d at 1194. This second
inquiry “must be undertaken in light of the specific context
of the case, not as a broad general proposition.” Id.; see
also Marsh v. Butler County, 268 F.3d 1014, 1031-33 (11th
Cir. 2001) (en banc).
Here, as Plaintiff herself concedes, the issue “is not
whether [Wengert] had the right to make arrests, it [is] the
manner in which he made arrests or, in this case, killed a
citizen, that is at the heart of this lawsuit.” (ECF No. 126
at 10-11). There is no question that Wengert was acting
within his discretionary authority as a police officer at
all times relevant to this action. See Lee, 284 F.3d at 1194
(in excessive force case, “there can be no doubt that [the
officer] was acting in his discretionary capacity when he
arrested [the plaintiff].”). The issue, then, is whether the
arrest was lawful.
Plaintiff argues that the arrest violated Thompson’s
constitutional rights under the Fourth and Fourteenth
Amendments. Defendants counter that Wengert had
probable cause to make the arrest, and that the force he
used was permissible:

31a
Appendix B
Thompson refused to answer questions and
obstructed the lawful investigation which
Deputy Wengert was conducting concerning
an armed robbery and then upon firing at
Deputy Wengert and wielding a firearm at
Deputy Wengert, Deputy Wengert had probable
cause to arrest Mr. Thompson. Upon Mr.
Thompson fleeing from arrest, Deputy Wengert
lawfully pursued Mr. Thompson. During the
course of the pursuit, Mr. Thompson shot at
Deputy Wengert and Deputy Wengert lawfully
responded with force including deadly force and
acted in self-defense.
(ECF No. 102-5).
If I accepted Wengert’s account as true without
further inquiry, qualified immunity plainly would apply.
Thompson fit the robbery suspects’ descriptions, fled
police to avoid arrest, and shot at Wengert. Those acts
would be more than sufficient to establish probable cause.
See, e.g., Tennessee v. Garner, 471 U.S. 1, 11-12, 105 S. Ct.
1694, 85 L. Ed. 2d 1 (1985) (probable cause exists when
suspect threatens officer with weapon). As for the use of
deadly force, it is well settled that a police officer can use
such force when he feels he or another person in under
imminent threat of severe bodily harm or death. See, e.g.,
McCormick v. City of Ft. Lauderdale, 333 F.3d 1234, 1246
(11th Cir. 2003). In other words, if Thompson was shooting
at Wengert, Wengert had every right to shoot back.

32a
Appendix B
But Plaintiff disputes almost every aspect of Wengert’s
story. She contends, inter alia, that Thompson had nothing
to do with the robbery, did not fit the robbery suspects’
descriptions, did not flee arrest, was not armed, and did
not shoot at Wengert. Under those facts, there would
have been no probable cause for Thompson’s arrest, no
legal reason for Wengert to shoot him, and therefore no
qualified immunity.
Of course, a third possibility exists: perhaps neither
side’s version of events is completely accurate, and the
truth lies somewhere in between. Clearly, questions of
material fact remain precluding summary judgment in
Wengert’s favor on Counts I & II. I will revisit Wenger’s
qualified immunity claim after trial with the benefit of a
complete record.
B. Israel: Official Capacity (Count III)
Count III alleges that Israel, as Broward County
Sheriff, was negligent in implementing hiring, supervision,
and retention policies at BCSO. “To establish a claim
for negligent hiring, supervision and/or retention, a
plaintiff must prove that the employer owed a legal duty
to the plaintiff to exercise reasonable care in hiring and
retaining safe and competent employees.” Spadaro v.
City of Miramar, 2013 U.S. Dist. LEXIS 16714, 2013 WL
495780, at *13 (citing Magill v. Bartlett Towing, Inc., 35
So. 3d 1017, 1020 (Fla. Ct. App. 2010)). “Additionally, the
employer’s failure to investigate or take corrective action
‘must be the proximate cause of the plaintiff’s harm,’ and
there must be ‘a connection and foreseeability between

33a
Appendix B
the employee’s employment history and the current tort
committed by the employee.’” Blue, 2011 U.S. Dist. LEXIS
63159, 2011 WL 2447699, at *4 (citations omitted).
Here, setting aside whether Israel was negligent in
implementing hiring, supervision, and retention policies at
BCSO, a question of fact remains as to whether Wengert
committed a tort against Thompson. If Wengert was
faultless in the shooting and there was no tort, then
Plaintiff has no claim against Israel. As discussed above,
whether Wengert was at fault turns at least in part on
whether Thompson was firing a gun at him. See supra
Part III.A. That question, among others, is a matter of
vigorous dispute between the parties. I therefore decline
to grant summary judgment as to Count III.
C. Israel: Individual Capacity (Count IV)
Count IV is a § 1983/state law wrongful-death claim
against Israel, in his individual capacity. Federal law
is silent on the question of whether a decedent’s legal
representative can bring a section 1983 claim for the
decedent’s death. See Chaudhry v. City of Los Angeles,
751 F.3d 1096, 1103 (9th Cir. 2014). Under 42 U.S.C. § 1988,
when federal law is “deficient” in the provision of suitable
remedies, state statutory or common law applies, unless
it is inconsistent with the Constitution or federal law,
in which case that state statutory or common law does
not apply. See Sharbaugh v. Beaudry, 267 F. Supp. 3d
1329, 1329-35 (N.D. Fla. 2017) (applying state statute to
§ 1983 wrongful death claim). I therefore look to Florida’s
wrongful death statute, Fla. Stat. § 768.19, to assess

34a
Appendix B
Count IV. Section 768.19 creates a cause of action when
“the death of a person is caused by the wrongful conduct,
negligence, default, or breach of contract or warranty of
any person.”
Here, Plaintiff asserts that Israel was “deliberately
indifferent”4 about (1) “his duties in that he either expressly
or impliedly acknowledged and assented to the failure to
train, supervise, control or otherwise screen employees
of [BCSO] including, but not limited to, [Wengert], for
dangerous propensities, lack of training and/or skill or
other characteristics making said officers and employees
unfit to perform their duties,” and (2) “the safety of the
public, including [Thompson], by failing to remedy these
problems, even though he had notice of them.” (ECF No.
75 ¶¶ 106-09). Plaintiff argues Israel’s alleged deliberate
indifference violated § 1983 and state law.
Plaintiff claims Israel is liable as Wengert’s supervisor.
“Supervisor liability [under § 1983] occurs either when
the supervisor personally participates in the alleged
constitutional violation or when there is a causal connection
between actions of the supervising official and the alleged
constitutional deprivation.” Braddy v. Florida Dep’t of
Labor & Empl. Sec., 133 F.3d 797, 802 (11th Cir. 1998)
4. To demonstrate a claim of deliberate indifference, a plaintiff
must show: (1) subjective knowledge of a risk of serious harm due
to the lack of certain policies, or the failure to adhere to existing
policies; (2) disregard of that risk; and (3) conduct that is more than
gross negligence. See Franklin v. Curry, 738 F.3d 1246, 1250 (11th
Cir. 2013) (citing Goodman v. Kimbrough, 718 F.3d 1325, 1331-32
(11th Cir. 2013) (internal quotation marks omitted)).

35a
Appendix B
(quoting Brown v. Crawford, 906 F.2d 667, 671 (11th Cir.
1990)). A “causal connection” may exist if a supervisor
had the ability to prevent or stop a known constitutional
violation by exercising his supervisory authority and he
failed to do so. Keating v. City of Miami, 598 F.3d 753,
765 (11th Cir. 2010). “The standard by which a supervisor
is held liable in [his] individual capacity for the actions of
a subordinate is extremely rigorous.” Braddy, 133 F.3d
at 802.
Here, there is no evidence that Israel personally
participated in the shooting. Plaintiff instead argues
that the evidence shows a causal connection between the
shooting and Israel’s alleged indifference about hiring,
supervising, and retaining Wengert. Even assuming
Plaintiff is correct, and there is a causal connection, she
still must prove an underlying constitutional violation
or tort, otherwise the claims against Israel fall apart.
As there are open questions about the circumstances of
the shooting, summary judgment as to Count IV is not
warranted. 5
D. Plaintiff’s Monell Claim (Count V)
In Count V, Plaintiff seeks to hold BCSO liable for
Wengert’s alleged misconduct under Monell v. Dep’t of
Soc. Servs., 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d 611
5. Defendants also argue that Israel is entitled to sovereign
immunity. It is well-settled, however, that “[t]he retention and
supervision of a [police officer] by a [police department] are not
acts covered with sovereign immunity.” Slonin v. City of West Palm
Beach, 896 So. 2d 882, 884 (Fla. Ct. App. 2005).

36a
Appendix B
(1978). In Monell, the Supreme Court held that a municipal
corporation can be named as a defendant in a § 1983 action.
Id. at 701. To establish municipal liability under § 1983, a
plaintiff must prove that: “(1) his constitutional rights were
violated, (2) the municipality had a custom or policy that
constituted deliberate indifference to his constitutional
rights, and (3) the policy or custom caused the violation of
his constitutional rights.” Ludaway v. City of Jacksonville,
245 F. App’x 949, 951 (11th Cir. 2007) (citing McDowell
v. Brown, 392 F.3d 1283, 1289 (11th Cir. 2004)). Thus, as
is the case with Counts III and IV, Count V hinges, at
least in part, on whether Wengert violated Thompson’s
constitutional rights. Defendants are therefore not entitled
to summary judgment on Count V.
IV. CONCLUSION
The common denominator of Plaintiff’s claims is that
each requires proof that Wengert committed an unlawful
act when he shot and killed Thompson. If he did not, all of
Plaintiff’s claims fail as a matter of law. It therefore might
be beneficial to resolve that issue at trial before moving on
to hiring, supervision, and retention issues. If the parties
agree with the Court’s assessment, they should consider
how the trial might be structured to achieve that result.
In any event, Defendants’ Joint Motion for Summary
Judgment (ECF No. 102) is DENIED.
DONE and ORDERED in chambers at Miami,
Florida, this 31st day of January 2018.
/s/ Marcia G. Cooke			
MARCIA G. COOKE
United States District Judge

37a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JUNE 11, 2018
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10776-EE
DONNETT M. TAFFE, PERSONAL
REPRESENTATIVE OF THE ESTATE OF
STEVEN JEROLD THOMPSON, DECEASED,
Plaintiff-Appellee,
v.
GERALD E. WENGERT, INDIVIDUALLY FOR
ACTIONS TAKEN IN HIS OFFICIAL CAPACITY
AS A DEPUTY SHERIFF FOR THE BROWARD
COUNTY SHERIFF’S OFFICE, SCOTT ISRAEL,
INDIVIDUALLY, SCOTT J. ISRAEL, IN HIS
OFFICIAL CAPACITY ONLY,
Defendants-Appellants.
June 11, 2018, Decided
Appeal from the United States District Court
for the Southern District of Florida.
Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
The second issue raised in the jurisdictional question
that we issued, concerning whether we have jurisdiction

38a
Appendix C
over the portion of the district court’s January 31, 2018
order denying summary judgment on the official-capacity
claims against Scott J. Israel, is CARRIED WITH
THE CASE. This appeal may proceed as to the denial
of qualified immunity as to Mr. Israel, in his individual
capacity, and as to defendant Gerald E. Wengert. See
Behrens v. Pelletier, 516 U.S. 299, 313, 116 S. Ct. 834, 133
L. Ed. 2d 773 (1996); Koch v. Rugg, 221 F.3d 1283, 129596 (11th Cir. 2000).
A final determination regarding jurisdiction will be
made by the panel to whom this appeal is submitted for a
decision on the merits.

39a
APPENDIX D—Appendix
DENIAL D
OF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
FILED JULY 11, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10776-EE
DONNETT M. TAFFE, PERSONAL
REPRESENTATIVE OF THE ESTATE OF
STEVEN JEROLD THOMPSON, DECEASED,
Plaintiff-Appellee,
v.
GERALD E. WENGERT, INDIVIDUALLY FOR
ACTIONS TAKEN IN HIS OFFICIAL CAPACITY
AS A DEPUTY SHERIFF FOR THE BROWARD
COUNTY SHERIFF’S OFFICE, SCOTT ISRAEL,
INDIVIDUALLY, SCOTT J. ISRAEL, IN HIS
OFFICIAL CAPACITY ONLY,
Defendants-Appellants.
Appeal from the United States District Court
for the Southern District of Florida

40a
Appendix D
ON PETITION(S) FOR REHEARING AND
PETITION{S) FOR REHEARING EN BANC
BEFORE: WILSON, JILL PRYOR, and SUTTON,*
Circuit Judges.
PER CURIAM:
The Petition(s) for Rehearing are DENIED and
no Judge in regular active service on the Court having
requested that the Court be polled on rehearing en banc
(Rule 35, Federal Rules of Appellate Procedure), the
Petition(s) for Rehearing En Banc are DENIED.
ENTERED FOR THE COURT:
/s/
UNITED STATES CIRCUIT JUDGE

* Honorable Jeffrey S. Sutton, United States Circuit Judge
for the Sixth Circuit, sitting by designation.

